Oversight Review              January 27, 2012


 Quality Control Review of Army Audit Agency's
         Special Access Program Audits

         Report No. DODIG-2012-045
Additional Information and Copies
The Department of Defense, Office of the Assistant Inspector General for Audit Policy
and Oversight, prepared this report. To obtain additional copies of the final report, visit
www.dodig.mil/audit/reports or contact the Office of the Assistant Inspector General for
Audit Policy and Oversight at (703) 604-8760 or fax (571) 372-7454.

Suggestions for Reviews
To suggest or request reviews, contact the Office of the Assistant Inspector General for
Audit Policy and Oversight by phone (703) 604-8760 (DSN 664-8760), by fax
(571) 372-7454, or by mail:

                       Department of Defense Inspector General
                       OIG-APO
                       ATTN: Suite 11D28
                       4800 Mark Center Drive
                       Alexandria, VA 22350-1500




Acronyms and Abbreviations
AAA                           Army Audit Agency
SAP                           Special Access Programs
GAGAS                         Generally Accepted Government Auditing Standards
Appendix A. Comments, Observations, and
Recommendations
We are issuing a pass opinion because we determined that the Army Audit Agency’s
(AAA) quality control system is adequately designed and functioning as prescribed. The
concerns we identified during our review of the selected AAA audit reports were not
cumulatively significant enough to indicate that material deficiencies existed in the AAA
quality control system for complying with generally accepted government auditing
standards (GAGAS).

We identified areas of concern relating to independence, planning, audit documentation,
and quality control. We judgmentally tested the reports for compliance with GAGAS and
AAA audit policies in nine areas to include independence, professional judgment,
competence, audit planning, supervision, evidence, audit documentation, reporting and
quality control.

Independence
We found that the program director did not sign the independence statement for the audit
manager which was documented in the audit working paper files for one of the two audits
reviewed.

GAGAS 3.02 (2007 Revision) states that in all matters relating to the audit work, the
audit organization and the individual auditor, whether government or public, must be free
from personal, external, and organizational impairments to independence, and must avoid
the appearance of such impairments of independence.

USAAA Regulation No. 36-3, Audit Survey and Execution, dated October 17, 2003,
Chapter 2, Section 4, Independence states that to comply with the independence standard,
the Auditor-in-Charge must determine and document whether any audit team members
have any personal impairments to independence based on the audited activity or subject
matter of the audit. Auditors are responsible for notifying audit management if they have
a personal impairment to independence. This must be completed before starting any
audit work.

While the audit documentation did not include a signed independence statement for the
audit manager, the independence statements for all other auditors assigned to the audit,
including the program director and auditor-in-charge, were also part of the audit
documentation. The audit manager stated that it was an oversight that the independence
statement was not documented in the audit files.

Recommendation
We recommend that the AAA Program Director for Intelligence and Security audits
remind auditors to follow AAA guidance for preparing, reviewing and documenting
auditor independence for all auditors assigned to the audit to include audit managers.




                                            1
Management Comments
The Army Audit Agency’s Deputy Auditor General concurred with the recommendation and
stated that on December 7, 2011, the program director sent an e-mail to all special access
program personnel discussing the results of the quality control review and re-emphasized the
requirements of USAAA Regulation No. 36-3 (Audit Survey and Execution) relating to the
need for auditors, specialists and independent reviewers to review and sign independence
statements upon assignment to an engagement.

Reviewer Response
Management comments are responsive. The program director’s December 7, 2011
e-mail requires that the auditors follow USAAA Regulation No. 36-2 by including
independence statements in the working papers and having the appropriate supervisor
sign the independence statements.

Planning
We found that for one of the two audits reviewed, the auditors did not prepare
audit working papers or memorandums for record to document meetings with
AAA management regarding progress and results of audited areas.

GAGAS 7.12e (2007 Revision) states that auditors should communicate about
planning and performance of the audit to management officials, those charged
with governance, and others as applicable.

USAAA Regulation No. 36-2, Planning the Audit, dated February 24, 2009, Section 8-1,
Purpose of Planning Decision Gate states that decision gates allow for program directors,
audit managers, and Auditors-in-Charge to plan and conduct engagements and to reach
agreements on how engagement results will be presented in the report. The intent of the
decision gates is to ensure all engagements are managed more effectively and feedback is
provided to the customer in a timely manner. Typical Agency audits and attestation
engagements require four decision gates: planning, 30 percent in-process review, 60
percent review, and message agreement. The primary purpose of the planning decision
gate meeting is to ensure that the auditors are in agreement on the focus of the
engagement and that the auditors have the capability to perform the engagement as
planned.

USAAA Regulation No. 36-2, Planning the Audit, dated February 24, 2009, Section 8-4,
Documenting the Planning Meeting states that the Auditor-in-Charge is responsible for
ensuring the planning meeting, and any decisions made therein, is documented.

Since the audit documentation did not contain a working paper or memorandum of the
meetings between the Army auditors and AAA audit management regarding the progress
of the audit, we could not determine whether audit management either approved the
progress of the audit plan that the auditors presented or discussed other audit approaches.

Recommendation
We recommend that the AAA Program Director for Intelligence and Security audits
remind auditors to include documentation of meetings with AAA audit management


                                             2
regarding any audit planning decisions made to comply with USAAA Regulation No.
36-2.

Management Comments
The Army Audit Agency’s Deputy Auditor General concurred with our recommendation
and stated that on December 7, 2011, the program director sent an e-mail to all special
access program personnel discussing the results of the quality control review and re-
emphasized the requirements of USAAA Regulation No. 36-2 (Planning the Audit)
related to the need for teams to document in working papers the decisions made at
planning decision meetings.

Reviewer Response
Management comments are responsive. The program director’s December 7, 2011
e-mail requires that the planning decision gate meetings be documented using a working
paper or memorandum for the record. The e-mail also states that the working paper or
memorandum for the record should include those who attended the meeting and the
decisions made at the meeting to comply with USAAA Regulation No. 36-2.

Audit Documentation
We found that for one of the two audits reviewed, auditors did not prepare working
papers or memorandums for record to document in-process reviews with audit
management and Army command.

GAGAS 7.77 (2007 Revision) states that auditors should prepare audit documentation
related to planning, conducting, and reporting for each audit. Auditors should prepare
audit documentation in sufficient detail to enable an experienced auditor, having no
previous connection to the audit, to understand from the audit documentation the nature,
timing, extent, and results of audit procedures performed, the audit evidence obtained and
its source, and the conclusions reached, including evidence that supports the auditors’
significant judgments and conclusions.

USAAA Regulation No. 36-3, Audit Survey and Execution, dated October 17, 2003,
Chapter 4, Section 4, In-Process Review states that the audit team will hold an in-process
review (audit update briefing) with command personnel 45 to 60 days after the entrance
conference. The purpose of the in-process review is for the audit team to assess audit
progress and provide command an update on the audit status and the plan for audit
execution. This briefing also provides command with an opportunity to provide input on
the survey results and execution phase.

USAAA Regulation No. 36-3, Audit Survey and Execution, dated October 17, 2003,
Chapter 4, Section 5, Documenting the In-Process Review states that the Auditor-in-
Charge or designated team member should document the results and decisions made at
the in-process review in a memorandum for the record. This memorandum should
include:

   •   Date, time, and location of the meeting.



                                            3
   •   List of attendees and contact information (phone number, office location, e-mail
       address).

   •   Summary of meeting results including command comments and concerns.

   •   Agreements made between the audit team and command.

   •   A copy of the charts used to provide the briefing (as an attachment).

The auditors should file the in-process review memorandum in the Correspondence and
Conference Notes section of the working paper file.

We identified audit files that contained briefing charts discussed with audit management
and Army command, but the audit files did not contain a memorandum for record.
Therefore, we could not determine who attended the meetings and if audit management
or Army command had any comments or concerns relating to the briefings.

Recommendation
We recommend that the AAA Program Director for Intelligence and Security audits
remind auditors to document results and decisions made at in-process reviews in an audit
working paper or memorandum to comply with USAAA Regulation No. 36-3.

Management Comments
The Army Audit Agency’s Deputy Auditor General concurred with our recommendation
and stated that on December 7, 2011, the program director sent an e-mail to all special
access program personnel discussing the results of the quality control review and
re-emphasized the requirements of USAAA Regulation No. 36-3 (Audit Survey and
Execution) related to the need for teams to document the decisions made during
in-process reviews.

Reviewer Response
Management comments are responsive. The program director’s e-mail dated
December 7, 2011, requires that auditors document the internal in-process reviews and
command in-process reviews using a working paper or memorandum for the record.

Quality Control
We found that for one of the two audits reviewed, the working papers did not include
a completed quality control checklist.

GAGAS 3.50a (2007 Revision) states that each audit organization performing audits
or attestation engagements in accordance with GAGAS must establish a system of
quality control that is designed to provide the audit organization with reasonable
assurance that the organization and its personnel comply with professional standards
and applicable legal and regulatory requirements.

USAAA Regulation 36-62, Quality Assurance Program, dated April 16, 2008, Section
2-3, Quality Control Checklist states the following:



                                            4
   a. The auditor-in-charge and audit manager will complete the appropriate quality
      control checklist to document compliance with GAGAS throughout the audit.

   b. The quality control checklists provide a roadmap for the audit; they include
      separate sections on the planning, survey, and execution; report writing; and
      report reply process phases.

   c. Auditors-in-charge are required to answer each element of the checklist with a
      “yes,” “no,” or “not applicable;” initial that each quality control step was
      completed; provide relevant working paper citations for positive responses;
      and explain negative answers or steps marked as not applicable.

   d. Before the final report is issued, both the audit manager and the program
      director will sign the final page of the quality control checklist. The audit
      manager’s signature validates that the audit complied with GAGAS and
      Agency policies. The program director’s signature indicates that nothing came
      to their attention that the audit wasn’t conducted in accordance with GAGAS
      and Agency policies.

   e. The completed checklist and signatures will be documented in the working
      paper files.

The audit working paper files did not include a completed quality control checklist.
Specifically, the checklist areas relating to reporting and the command reply process were
not completed. The auditors did not answer the checklist sections of the reporting and the
reply process with a “yes,” “no,” or “not applicable.” AAA issued the final report
without completing all of the sections of the checklist. The auditors indicated that it was
an oversight that the checklist was not been completed.

Recommendation
We recommend that the AAA Program Director for Security and Intelligence follow the
AAA quality assurance program and ensure that all sections of the quality control
checklist are completed and a copy of the checklist is maintained in the audit files.

Management Comments
The Army Audit Agency’s Deputy Auditor General concurred with our recommendation
and stated that on December 7, 2011, the program director sent an e-mail to all special
access program personnel discussing the results of the quality control review and re-
emphasized the requirements of USAAA Regulation No. 36-62 (Quality Assurance
Program) related to the need for teams to complete all sections of the quality control
checklist and to include a copy of the checklist in the working papers.

Reviewer Response
Management comments are responsive. The program director’s e-mail dated
December 7, 2011, reminded the special access program personnel to complete all
sections of the quality control checklist and to include a copy of the checklist in the
working papers.



                                              5
Appendix B. Scope and Methodology
We limited our review to the adequacy of AAA SAP audits’ compliance with quality
policies, procedures, and standards. We judgmentally selected two SAP audits from a
universe of four SAP audit reports issued by AAA SAP auditors during FY 2009 and
FY 2010. We tested each audit for compliance with the AAA system of quality control.
The Naval Audit Service conducted a review of the AAA internal quality control system
for non-SAP audits and/or attestation engagements, and will issue a separate report. The
Deputy Inspector General for Audit Policy and Oversight will issue an overall opinion
report on the AAA internal quality control system that will include the combined results
of the SAP and non-SAP audit reviews.

In performing our review, we considered the requirements of quality control standards
contained in the 2007 revision of GAGAS issued by the Comptroller General of the
United States. GAGAS 3.56 states:

               The audit organization should obtain an external peer review sufficient
               in scope to provide a reasonable basis for determining whether the audit
               organization is complying with its quality control system in order to
               provide the audit organization with reasonable assurance of conforming
               with applicable professional standards.

We conducted this review in accordance with standards and guidelines established in the
March 2009 Council of the Inspectors Generals on Integrity and Efficiency “Guide for
Conducting External Peer Reviews of Audit Organizations of the Federal Offices of
Inspector General,” and the Quality Standards for Inspection and Evaluation. The Naval
Audit Service used this guide in review of non-SAP audits at the AAA. We reviewed
audit documentation, interviewed AAA auditors, and reviewed AAA internal audit
policies. We reviewed the DOD OIG Report No. D-2008-6-006, “Quality Control
Review of the Army Audit Agency’s Special Access Program Audits” dated June 2,
2008. We performed this review from September to November at two AAA offices.

We used the following criteria to select the audits under review:

   x   Worked backward starting with the FY 2010 audits in order to review the most
       current quality assurance procedure in place.

   x   Avoided audits with multiple SAPs associated with the audit for ease of access.

   x   Avoided audits that have the same or similar titles to ensure review of multiple
       types of projects.

Limitations of Review
Our review would not necessarily disclose all weaknesses in the system of quality control
or all instances of noncompliance because we based our review on selective tests. There
are inherent limitations in considering the potential effectiveness of any quality control
system. In performing most control procedures, departures can result from



                                                  6
misunderstanding of instructions, mistakes of judgment, carelessness, or other human
factors. Projecting any evaluation of a quality control system into the future is subject to
the risk that one or more procedures may become inadequate because conditions may
change or the degree of compliance with procedures may deteriorate.




                                             7
Department of the Army, U.S. Army Audit
Agency Comments




                     8
9
10
